Case: 18-2224

Document: 00117635035

Page: 1

Date Filed: 08/28/2020

Entry ID: 6363311

United States Court of Appeals
For the First Circuit
_____________________
No. 18-2224
UNITED STATES,
Appellee,
v.
JOSE ANTONIO LUGO-GUERRERO, a/k/a Antonio Moraima, a/k/a Fernando RiveraRodriguez, a/k/a Alex,
Defendant - Appellant.
__________________
Before
Torruella, Kayatta and Barron,
Circuit Judges.
__________________
JUDGMENT
Entered: August 28, 2020
Defendant appeals his 192-month sentence for conspiracy to possess with intent to
distribute controlled substances and possession of firearms in furtherance of a drug trafficking
crime. Defense counsel argues that that the district court erred by accepting a plea that was not
voluntary or intelligent, contending that the court (1) did not ensure that defendant clearly
understood the nature of his agreement with the government and (2) did not properly advise
defendant of the elements of 18 U.S.C. ยง 924(c). In a supplemental pro se brief, defendant further
claims (1) that the district court did not understand its authority, as stated in Dean v. United States,
137 S. Ct. 1170 (2017), to consider a sentence imposed under ยง 924(c) when calculating a just
sentence for the predicate drug crime; (2) that the district court erred by imposing a 4-level
enhancement to defendant's offense level for being a leader of the conspiracy; (3) that the district
court erred by denying defendant's motion to suppress wiretap evidence; and (4) that the district
court erred by not solely relying upon the amount of drugs actually seized during the investigation
in determining the drug quantity for the offense. The government has moved for summary
affirmance of the district court's decision.
We have carefully reviewed the parties' briefs and the record below and GRANT the
government's motion for summary disposition and AFFIRM the judgment of the district court.

Case: 18-2224

Document: 00117635035

Page: 2

Date Filed: 08/28/2020

By the Court:
Maria R. Hamilton, Clerk

cc:
Karen A. Pickett
Jose Antonio Lugo-Guerrero
Donald Campbell Lockhart
Theodore Babcock Heinrich

Entry ID: 6363311

